U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          OFFICE OF THE SECRETARY

          Program for Designating Positions
       According to Their Risk and Sensitivity
       Needs to Be Updated and Strengthened


   Final Inspection Report No. OSE-14486/September 2001




                            PUBLIC
                            RELEASE



                            Office of Systems Evaluation

U.S. Department of Commerce                                                    Final Inspection Report OSE-14486
Office of Inspector General                                                                       September 2001



Director of Human Resources Management on these issues. Both generally concurred with our
conclusion that the Department’s program for designating positions and conducting and
recording background investigations need to be updated and strengthened, as well as with our
preliminary recommendations, and they immediately advised us of their plan to form a joint team
to address these issues. We then held meetings with the Deputy Assistant Secretary for Security
and the Director of Human Resources Management and members of their staffs at which they
presented information on their roles and responsibilities, plans to address our findings and
recommendations, and tentative dates for completion of proposed corrective actions.

The Chief Financial Officer and Assistant Secretary for Administration agreed with the findings
and recommendations of our draft report, and the Deputy Assistant Secretary for Security and the
Director of Human Resources Management are coordinating the development of a plan to
implement our recommendations. The response to our draft report is included as an attachment
to this report and constitutes the action plan. We will consider the matter resolved when we
receive a copy of the plan referenced in the response.

INTRODUCTION

The Department of Commerce has numerous positions that involve policy-making, major
program responsibility, public safety and health, law enforcement, fiduciary responsibilities, and
other duties demanding a significant degree of public trust. Many Commerce positions involve
access to or operation or control of financial records, which, if misused, pose a significant risk
for causing damage or realizing inappropriate personal gain. These types of positions are
considered to have high or moderate risk levels and would normally be designated as “public
trust” positions. Agency heads are required to designate every competitive service position
within the agency at a high, moderate, or low risk level as determined by the position’s potential
for adversely affecting the efficiency and integrity of government programs and operations.3

Commerce also has positions that could allow employees to have a material adverse effect on
national security. Agency heads are similarly required to designate such positions according to
their level of sensitivity—nonsensitive, non-critical sensitive, critical sensitive, and special
sensitive.4

Guidance for designating positions within the Department according to the four national security
sensitivity levels and for determining the type of background investigation appropriate for each
level is contained in the Commerce Personnel Security Manual. This manual, which was issued

       3
        Positions designated as low risk are not considered “public trust” positions.
       4
        5 CFR 731, Suitability and 5 CFR 732, National Security Positions.

                                                         2
U.S. Department of Commerce                                          Final Inspection Report OSE-14486
Office of Inspector General                                                             September 2001



by the Office of Security in December 1988, implemented then-current Federal Personnel
Manual (FPM) chapters 731 (Personnel Suitability), 732 (Personnel Security), 736 (Personnel
Investigations), and 754 (Suitability Disqualification Actions). In November 1989, the
Department’s Office of Personnel and Civil Rights issued the final version of Department
Administrative Order (DAO) 202-731, Position Sensitivity for Personnel Suitability and
Personnel Security Purposes, which established the four-level system for designating the
sensitivity of positions for personnel suitability and national security purposes as described in
FPM chapters 731 and 732.

When DAO 202-731 was issued in 1989, positions having a potential impact on efficiency and
integrity (i.e., public trust positions) were designated according to the same sensitivity levels as
positions dealing with national security. For example, a position that required the employee to
deal regularly with sensitive economic information that is not available to the public might have
been designated as critical sensitive, but without a need to access national security information.
However, in 1991, the Office of Personnel Management (OPM) issued Appendix A to 731
Subchapter 5 of the FPM. This appendix provided guidance and criteria for designating
positions of public trust, such as those dealing with development of Principal Federal Economic
Indicators, as high, moderate, or low risk. It also specified the type of background investigation
appropriate for each of these risk levels. However, the FPM was abolished in December 1993.

On December 28, 2000, OPM published revised regulations in the Federal Register concerning
the designation of positions based on risk level and the associated background investigation
requirements. These regulations, found at 5 Code of Federal Regulations Part 731, became
effective on March 30, 2001; however, they do not provide details, such as those provided by
FPM Appendix A, for designating position risk levels and do not identify background
investigation requirements for the various risk levels. Rather than including these details in the
regulations, OPM decided to offer federal agencies training on designating position risk levels
and determining appropriate background investigations. Although the revised regulations only
address risk levels, the training also provides guidance on designating position sensitivity levels
and determining appropriate background investigations for positions dealing with national
security. OPM’s Federal Investigations Notice No. 01-08, dated March 19, 2001, provides
details about the available training.

Additionally, because of the abolishment of the FPM, the revised regulation includes a section
outlining OPM’s and agencies’ responsibilities for personnel security associated with the design,
operation, and use of federal automated information systems, as required by OMB Circular A
130, Management of Federal Information Resources, and the Computer Security Act. OPM’s
training addresses the designation of positions dealing with federal automated information
systems from both the risk and sensitivity perspectives.


                                                  3

U.S. Department of Commerce                                       Final Inspection Report OSE-14486
Office of Inspector General                                                          September 2001



OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this evaluation was to assess the Department’s program for designating
positions of employment according to their impact on the efficiency and integrity of government
programs and operations or on national security and for ensuring that appropriate background
investigations are performed. We reviewed applicable Department Administrative Orders, as
well as manuals and information provided by OPM, and held discussions with representatives
from the Department’s Office of Security (OSY) and the Office of Human Resources
Management (OHRM). To ascertain whether the issues raised in our work on Advance Retail
Sales were of concern in other areas of the Department, we reviewed guidance from human
resources management offices for selected operating units, as well as background investigation
records.

Our evaluation was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency, and was performed under the authority of
the Inspector General Act of 1978, as amended, and Departmental Organization Order 10-13,
dated May 22, 1980, as amended.

FINDINGS AND RECOMMENDATIONS

Department guidance for designating positions according to their impact on the efficiency and
integrity of government programs and operations or on national security is out of date and needs
to be revised immediately and promulgated to all Commerce operating units. Furthermore, the
Department’s records of background investigations conducted for employees are incomplete and
need to be updated. Finally, the Department needs to ensure that its operating units understand
and are implementing the new guidance.

I.	    Department Guidance for Designating Positions is Out of
       Date, and Positions are Designated Incorrectly

DAO 202-731and the Personnel Security Manual are the official Department-level documents
that provide guidance for designating positions according to their potential impact on the
efficiency and integrity of government programs and operations or the national security and for
conducting appropriate background investigations. However, because these documents were
issued in 1989 and 1988, respectively, they do not address important changes to position
designation and investigation guidance brought about by modifications to the FPM, 5 Code of
Federal Regulations, and OMB Circular A-130. Neither the DAO nor the security manual
includes guidance for assigning risk levels to positions that could affect the efficiency and
integrity of government programs and operations, or conducting associated background
investigations. Each document should have been updated and reissued as changes to the FPM, 5

                                               4

U.S. Department of Commerce                                         Final Inspection Report OSE-14486
Office of Inspector General                                                            September 2001



CFR, and OMB Circular A-130 were made. As noted earlier, rather than developing detailed
implementation guidance, OPM decided to offer federal agencies training that is consistent with
current regulations for designating position risk and sensitivity levels and determining
appropriate background investigations.

In March 1993, OHRM issued Departmental Notice 93-2 to implement the changes in the FPM
and 5 CFR, which clarified the distinctions between suitability and national security requirements
and added a system of risk designation and investigative requirements. DAO 202-731 should
have been modified to incorporate the requirements of the notice before its expiration date of
September 30, 1993. However, DAO 202-731 was never modified and reissued. The Personnel
Security Manual should also have been modified to include the departmental guidance. A 1995
draft version of the Personnel Security Manual included much of the guidance, but was never
finalized by OSY.

Because DAO 202-731 and the Personnel Security Manual have not kept pace with changes that
affected all federal agencies, Commerce operating units have no current, official Department-
level guidance for designating public trust and national security positions and conducting
appropriate background investigations. As a result, some positions of public trust within the
Department and its operating units are designated according to national security sensitivity levels
rather than the appropriate risk levels, a circumstance that can lead to inappropriate background
investigations. Also, risk levels for some positions are inconsistent with their level of
responsibility and trust.

Moreover, the responsibility and authority of personnel involved in the designation process are
not clear, and human resources, security, and management officials do not always understand
their responsibilities. DAO 202-731 names the head of the operating unit as the responsible
official for ensuring that the sensitivity designations of positions are accurate and for making the
designations. Supervisors are responsible for making recommendations to designating officials
on sensitivity levels for positions. The order permits the designation authority to be redelegated
only to officials to whom full personnel management authority has been delegated. Servicing
personnel officers are to review position designations for adherence to level definitions and
consistency across similar positions and to provide advice and guidance, as needed. Disputes
between personnel officers and designating officials are to be resolved by the next higher
management level. Servicing personnel officers also are responsible for initiating the appropriate
personnel investigation. Servicing security officers are to provide advice and guidance to
designating officials in cases involving access to classified information or other national security
issues.

Departmental Notice 93-2 attempted to revise this authority, including giving managers increased
responsibility and authority. It delegated authority for position sensitivity and risk level

                                                 5

U.S. Department of Commerce                                                     Final Inspection Report OSE-14486
Office of Inspector General                                                                        September 2001



designation to the heads of operating units, principal personnel officers, and servicing personnel
officers, but allowed heads of operating units to authorize subordinate managers and supervisors
to designate risk levels. It also made supervisors responsible for determining whether, and to
what extent, a position requires access to national security information. Heads of operating units
were to arbitrate disputes between managers and personnel officers regarding sensitivity and risk
level designations. Servicing personnel officers were to be responsible for keeping position
sensitivity and risk designations current for the National Finance Center personnel/payroll
system, and security officers were responsible for assuring that investigation requests by
management were consistent with the data going to the Finance Center and for initiating the
investigation process. The notice also included provisions for suitability adjudication.5
However, as noted previously, the notice expired in September 1993.

As a result of our discussions, OHRM and OSY have begun to coordinate efforts to update DAO
202-731 and the Personnel Security Manual to reflect the current governing regulations and
should continue this new process. However, the Department needs to assess the responsibilities
and authorities associated with position sensitivity and risk designations, including the role of
managers; determine how the responsibilities and authorities will be allocated; and ensure that
they are understood by managers, personnel officials, and security officials. In addition,
managers and staff from OHRM and OSY should (1) attend OPM-approved training on
designating position risk and sensitivity levels and determining appropriate background
investigations, (2) update DAO 202-731 and the Personnel Security Manual to include OPM’s
latest guidance and clearly identify the roles and responsibilities of heads of operating units,
subordinate managers and supervisors, servicing personnel officers, and security officers, and (3)
distribute revised departmental guidance to all operating units.

II.	     Records of Investigations Are Incomplete, and
         Employees Lack Appropriate Investigations

The Department lacks current and complete information on employee risk or sensitivity levels
and the type and currency of the investigations, if any, conducted for employees. During our
evaluation of the Census Bureau’s Advance Retail Sales economic indicator, we noted that OSY
was unable to provide investigation records for many employees in the Census Bureau’s
Economic Programs Directorate. OSY currently uses two automated systems to track the type of
investigation performed and the date the investigation was completed; however, in many cases,
neither system contains the needed information. Our Census Bureau evaluation also found that,



         5
          Suitability adjudication means assessing an individual’s past and present conduct for indications of
probable future actions with adverse impact on the efficiency of the service and includes deciding to take action
based on pre-employment factors, such as falsification of application documents.

                                                          6
U.S. Department of Commerce                                        Final Inspection Report OSE-14486
Office of Inspector General                                                           September 2001



in some cases, employees did not have the level of background investigation required by the risk
level of their positions.

In a later review of a sample of investigation records provided by OSY for employees of the
National Institute of Standards and Technology, the Bureau of Export Administration, and the
National Oceanic and Atmospheric Administration, we found additional instances where
employees did not have the level of background investigation required by the sensitivity or risk
level designation of their positions. In some cases, the level of background investigation was too
low and thus would not provide assurance that employees could be trusted with the information
to which they have access. In other cases, the level was too high and, hence, unnecessarily
expensive and intrusive. The sample also contained records indicating what type of investigation
was conducted and when it was conducted, but did not include the position designation, which is
needed to determine whether the appropriate level of investigation had been conducted, and thus,
is not an effective management tool. A further indication of problems is that the Department
began participating in a pilot project with OPM in 1998 to enter agency investigation data into
OPM’s Suitability Investigations Index database, but, according to OSY, later withdrew from the
project because of a lack of confidence in the data.

The Department should maintain an accurate database that indicates the position designation and
investigation data for all employees. The data should indicate the employee’s risk or sensitivity
level, as well as what type of investigation was conducted and when it was conducted. Without
accurate data, it is impossible to determine whether employees have had the appropriate
background investigation and are suitable to fill their positions based on the sensitivity or risk
designation. Having a database that contains accurate investigation data for each employee is
also important because the database can be used to automatically notify security personnel when
reinvestigations are due to be conducted.

III.	   Recommendations

We recommend that the Chief Financial Officer and Assistant Secretary for Administration take
the necessary actions to:

2.	     Assess the responsibilities and authorities associated with position sensitivity and risk
        designations, determine how they should be allocated, and ensure that they are understood
        by managers, personnel officials, and security officials.

3.	     Ensure that managers and staff from OHRM and OSY attend OPM-approved training for
        designating risk-based and sensitivity-based positions and for determining appropriate
        background investigations.


                                                7

U.S. Department of Commerce                                       Final Inspection Report OSE-14486
Office of Inspector General                                                          September 2001



4.	    Ensure that OHRM and OSY continue to coordinate their efforts for developing revisions
       to DAO 202-731 and the Personnel Security Manual according to OPM regulation and
       guidance, and ensure that roles and responsibilities of heads of operating units,
       subordinate managers and supervisors, servicing personnel officers, and security officers
       are clearly stated.

5.	    Ensure that Commerce operating unit human resources and security personnel receive
       appropriate training and that they can implement the new regulations and guidance.

6.	    Ensure that heads of operating units, subordinate managers, and supervisors are aware of
       and can implement their roles and responsibilities for position designation.

7.	    Require OSY and OHRM to improve record keeping to ensure that background
       investigation data is accurately maintained for all employees.

8.	    Direct OHRM and OSY to develop a plan to determine whether current positions within
       the Department are properly designated according to risk or sensitivity level, appropriate
       background investigations have been conducted, and reinvestigations are being conducted
       as necessary.




As noted previously, the Chief Financial Officer and Assistant Secretary for Administration
agreed with the findings and recommendations of our draft report, and the Deputy Assistant
Secretary for Security and the Director of Human Resources Management are coordinating the
development of a plan to implement our recommendations. The response to our draft report is
included as an attachment to this report and constitutes the action plan. We will consider the
matter resolved when we receive a copy of the plan referenced in the response.

We appreciate the cooperation and courtesies extended to us by your staff during our review.

Attachment




                                               8

